Audit Report, “Information Assurance Controls in [a System] at [a NASA Center]”
(IG-05-011, March 28, 2005)

The NASA Office of Inspector General (OIG) conducted an audit to determine whether
the Center implemented adequate security and data integrity controls for the system. The
audit found that the Center needed to improve controls to comply with Federal, NASA,
and Center information technology (IT) security requirements. The Center concurred
with 24 of our 25 recommendations and implemented corrective actions to improve
controls and security of the system environment. The OIG and Center management
subsequently reached agreement on the final recommendation and appropriate corrective
action is expected to be completed by the end of FY 2006.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
